HHS/OIG-Audit -"Review of Pension Costs Claimed for Medicare Reimbursement by Highmark, Inc. for Fiscal Years
1998 Through 2002,"(A-07-04-00163)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed for Medicare Reimbursement by Highmark, Inc. for Fiscal Years 1998 Through 2002," (A-07-04-00163)
January 21, 2005
Complete
Text of Report is available in PDF format (950 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine the allowability of pension costs claimed for Medicare reimbursement for FY 1998 through
2002.  We found that Highmark underclaimed $1,637,414 in allowable Medicare pension costs for FY 1998 through 2002
because it did not identify its Medicare segments in accordance with its Medicare contract and did not update its Medicare
segment assets in accordance with CAS 412 and CAS 413.  Highmark claimed pension costs of $4,813,234 for Medicare
reimbursement; however, the allowable Medicare pension costs were $6,450,648.  We recommend that Highmark: (1) revise
its Final Administrative Cost Proposals (FACP) to claim allowable CAS pension costs of $1,637,414 for FY 1998 through 2002
and (2) implement controls to ensure that the Medicare segments are identified in accordance with the Medicare contract
and updated in accordance with CAS 412 and 413.  Highmark disagreed with our report and contends that: (1) the Office
of Inspector General (OIG) assigned certain participants to incorrect segments, (2) OIG identified the incorrect amount
of cost claimed on the Final Administrative Cost Proposal (FACP) by Highmark,and (3) most of OIGs findings concerning
the understatement of Medicare Part B segment assets were due to a retroactive application of a recent decision handed
down by the U.S. Court of Appeals concerning reassignable pension costs.